Robinson+Cole

THOMAS J. DONLON
1055 Washington Boulevard
Stamford, CT 06901-2249
Main (203) 462-7500
Fax (203) 462-7599
tdonlon@rc.com
Direct (203) 462-7549
Also admitted in New York
and Michigan

September 11, 2020
Supreme Court of the United States
Office of the Clerk
Washington, D.C. 20543-0001

Re: Congregation Rabbinical College of Tartikov, Inc. et al.
v. Village of Pomona, New York, et al.
Docket No. 20-14
Dear Mr. Harris,
Robinson & Cole LLP represents the Respondents in the above matter. Our Response to the
Petition for a Writ of Certiorari is due September 28, 2020. Pursuant to Rule 30.4, we request a
thirty (30) day extension of time to submit our Response. The reason for this request is
continuing effects of the COVID-19 pandemic, which impacts access to our offices and records.
It also affects the time necessary for the municipality to consider issues and respond to us. The
additional time requested would insure that our clients are properly represented as well as that
the Response is both meaningful and helpful to the Court.
Respectfully submitted,

Artzt4YPP-Girt
Thomas J. Donlon
cc:

John G. Stepanovich
Petitioner’s Counsel of Record (via email)

21175296-v2
Boston I Hanford I NewYork I Providence I Miami I Stamford I LosAngeles I Wilmington I Philadelphia I Albany I NewLondon I rc.com
Robinson& Cole LLP

